APPLICATION AND
SOLICITATION
DISCLOSURE
VISA SIGNATURE/VISA PLATINUM REWARDS/VISA
PLATINUM
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Signature

15.15% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards

15.15% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum

11.15% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APR for Balance Transfers

Visa Signature
0.00% Introductory APR for a period of 12 billing cycles.
After that, your APR will be 15.15% to 17.99%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards
0.00% Introductory APR for a period of 12 billing cycles.
After that, your APR will be 15.15% to 17.99%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum
0.00% Introductory APR for a period of 12 billing cycles.
After that, your APR will be 11.15% to 17.99%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02200808-MXC10-P-1-120718 (MXC101-E)

APR for Cash Advances

Visa Signature
15.15% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards
15.15% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum
11.15% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

None
None
$5.00 or 2.00% of the amount of each cash advance, whichever is greater
1.00% of each transaction in U.S. dollars
Up to $37.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR:
The Introductory APR for balance transfers will apply to transactions posted to your account during the first 90 days
following the opening of your account. Any existing balances on SPIRE Credit Union loan or credit card accounts are not
eligible for the Introductory APR for balance transfers.
Effective Date:
The information about the costs of the card described in this application is accurate as of: February 01, 2019
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Signature, Visa Platinum Rewards and Visa Platinum are secured credit cards.
Credit extended under this credit card account is secured by various personal property and money including, but
not limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral
for this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the
Credit Union excluding shares in an Individual Retirement Account or in any other account that would lose
special tax treatment under state or federal law, and (d) collateral securing other loans you have with the Credit
Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods
when you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02200808-MXC10-P-1-120718 (MXC101-E)

Other Fees & Disclosures:
Late Payment Fee:
$27.00 or the amount of the required minimum payment, whichever is less, if you are four or more days late in making a
payment. In the event you fail to make a payment on time in any of the six billing cycles following the initial violation, you
will be charged $37.00 or the amount of the required minimum payment, whichever is less.
Cash Advance Fee (Finance Charge):
$5.00 or 2.00% of the amount of each cash advance, whichever is greater.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$10.00.
Rush Fee:
$25.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02200808-MXC10-P-1-120718 (MXC101-E)

